No. 20-
IN THE SUPREME COURT OF THE UNITED STATES
CYNTHIA ROLLO-CARLSON, PETITIONER

Vv.

UNITEDE STATES OF AMERICA, RESPONDENT

 

CERTIFICATE OF SERVICE

I, Brian K. Lewis, a member of the Bar of this Court, hereby certify that on this 2274
day of March 2021, a copy of the Petition for Writ of Certiorari in the above-captioned
case was served upon the Acting Solicitor General of the United States, in accordance
with Supreme Court Rule 29.4(a), at 950 Pennsylvania Avenue, NW, Room 5616,
Washington, D.C. 20530-0001, via email to SupremeCtBriefs@USDOJ.gov and first-
class mail, postage prepaid from the post office in Woodbury, Minnesota 55125.

KE

Brian K. Lewis, Esq.
Counsel of Record

8362 Tamarack Village,
Suite 119-220

Woodbury, Minnesota 55125
Tel: (651) 829-1503

S. Ct. Bar ID #351120

 
